Case No. ___________
October Term, 2020
IN THE
SUPREME COURT OF THE UNITED STATES
DANE SCHRANK,
PETITIONER,
v.
UNITED STATES,
RESPONDENT.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner, Dane Schrank, through undersigned counsel, respectfully requests leave to file
his Petition for Writ of Certiorari to the Sixth Circuit Court of Appeals without prepayment of
costs or fees and to proceed in forma pauperis pursuant to Rule 39. Schrank has proceeded in
forma pauperis status since his arrest by the United States. Counsel for Schrank was appointed
pursuant to 18 U.S.C. § 3006A to represent Schrank in connection to the United States’s appeal.
Respectfully submitted,
Michael J. Benza - 0061454 (Ohio)
17850 Geauga Lake Road
Chagrin Falls, OH 44023
(216) 319-1247
michael.benza@case.edu
s/ Michael J. Benza
COUNSEL FOR DANE SCHRANK

